No. 19-968

In The

Supreme Court of tlje Winitzh States;
Chii^e Uzuegbunam,et al.,
Petitioners,
V.

Stanley C.Preczewsih, et al.,
Respondents.

CERTIFICATE OF SERVICE

I, Tarek J. Austin, a member of the Bar of this Court, hereby certify that on
March 4, 2020, I caused three copies of the Brief of the Foundation for Individual
Rights in Education as Amicus Curiae in Support of Petitioners in the abovecaptioned case to be served by Federal Express on the following:
John J. Bursch

Andrew Alan Pinson

Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Office of the Georgia Attorney General
40 Capital Square SW
Atlanta, GA 30334-1300
(404)651-9453
apinson@law.ga.gov

Counsel for Petitioners

Counsel for Respondents

I further certify that all parties required to be seiwed have been served.

Tarek J. Austin

CoviNGTON & Burling LLP

One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
taustin@cov.com

